App. 1
NONPRECEDENTIAL DISPOSITION
To be cited only in accordance with Fed. R. App. P. 32.1
United States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
Submitted August 26, 2020*
Decided August 27, 2020
Before
MICHAEL S. KANNE, Circuit Judge
ILANA DIAMOND ROVNER, Circuit Judge
AMY C. BARRETT, Circuit Judge
No. 19-3168
DAVID H. PENNY,
Plaintiff-Appellant,
v.

Appeal from the United
States District Court for
the Central District of
Illinois.

LINCOLN’S CHALLENGE
No. 17-cv-2232
ACADEMY,
Defendant-Appellee.
Colin S. Bruce,
Judge.
ORDER
Claiming that his employer fired him because he
opposed an act of disability discrimination against a
coworker, David Penny sued for retaliation under the
* We have agreed to decide this case without oral argument
because the brief and record adequately present the facts and le­
gal arguments, and oral argument would not significantly aid the
court. Fed. R. App. P. 34(a)(2)(C).

App. 2
Americans with Disabilities Act (“ADA”), 42 U.S.C.
§ 12203. The district court entered summary judgment
for the employer, explaining that Penny lacked evi­
dence of a causal connection between his opposition
and his termination. We see no error in that ruling, so
we affirm the judgment.
For reasons we explain below, we draw the facts
from the defendant’s evidentiary submissions, viewed
in the light most favorable to Penny. See McCurry v.
Kenco Logistics Servs., LLC, 942 F.3d 783,788 (7th Cir.
2019). Penny held various positions at Lincoln’s Chal­
lenge Academy, a reform school run by the Illinois De­
partment of Military Affairs, from 2003 to 2017. In
June 2015, when he was a “Commandant,” the Acad­
emy did not renew contracts for several workers, in­
cluding Jim Hart. Penny asked the academy’s director,
Peter Thomas, and the deputy director at the time why
Hart’s contract was not being renewed; he was told:
“Because he’s out a lot, he’s sick a lot, he’s got a lot of
medical problems.” Penny responded, “you really can’t
do that,” and “I don’t think that’s right and I don’t
think we should be doing that.” In August, Penny sent
the human resources department a memo describing a
phone call in which Hart “attempt[ed] to elicit infor­
mation regarding the reason for his non-renewal.”
Penny “reminded” Hart that he “was not the one who
recommended his nonrenewal” and said that whatever
the director told him “[was] the reason.” In his deposi­
tion, Penny testified that two employees from the hu­
man resources department later told him that it was
“in [his] best interest” to “make that memo disappear.”

App. 3
Penny had “no idea” why human resources “wanted the
whole thing gone.”
Penny further testified that, after Hart’s non­
renewal, he experienced a “lot of tension” at work and
had “some friction” with Director Thomas. As he stated
at his deposition, he “[couldn’t] go ten days without get­
ting accused of some racism or something-ism,” and his
work environment became “pretty hostile.” And after
Penny had knee surgery, Thomas told him that he was
not allowed to return to work until he was fully healed,
even though, according to Penny, the Academy had ac­
commodated others in the department with medical re­
strictions.
At the end of 2015, Penny became the Recruit­
ment, Placement, and Mentorship Coordinator, even
though he “didn’t apply for [the position] and didn’t
want it.” But he was told that taking it would be “in
[his] best interest,” which, as Penny later testified, he
understood as a veiled threat about his future at the
Academy.
About six months later, in June 2017, the Academy
terminated Penny’s contract. His supervisor, Deputy
Director Michael Haerr (who started working at the
Academy in late 2016), had recommended the termina­
tion. As Thomas explained in a memo, Penny was being
let go for “substandard performance,” specifically his
“inability to . . . meet Academy recruiting goals.” Ac­
cording to Penny’s deposition testimony, his superiors
had imposed goals that they knew “could not be met.”

App. 4
Penny sued the Academy for retaliation in viola­
tion of the ADA (and other claims that he does not pur­
sue on appeal). Specifically, he alleged that the
Academy terminated his contract because he had op­
posed Hart’s non-renewal, which he saw as an act of
disability discrimination. He asserted that he was
“coerc[ed] into accepting” a lower status position and
that his superiors purposefully set “unachievable” per­
formance goals “to give them an excuse to terminate
[him].”
After discovery, the Academy moved for summary
judgment. It listed ten “undisputed material facts” and
argued that, based on these facts, Penny could not es­
tablish a prima facie case of retaliation under the
ADA-. In his response, Penny argued that he had met
his burden and that, in any event, Federal Rule of Civil
Procedure 56 is unconstitutional because it violates
the right to a jury trial. In a section labeled “disputed
material facts,” he responded to six of the Academy’s
proffered facts. For the most part, his responses add
only minor clarifications or challenge the facts’ legal
significance, rather than the fact itself. Despite attach­
ing 114 pages of exhibits, Penny included only one ci­
tation to record evidence in his “disputed material
facts” section.
The district court granted the Academy’s motion
for summary judgment. The court first stated that it
drew most of the facts from the Academy’s statement
of undisputed material facts because Penny’s response
failed to comply with Central District of Illinois Local
Rule 7.1(D)(2). That rule provides, in relevant part,

App. 5
that each claim of disputed material fact and each ad­
ditional material fact must be “supported by eviden­
tiary documentation referenced by specific page.” C.D.
III. R. 7.1(D)(2)(b)(2), (5). Penny’s response included
only a section of “disputed material facts,” with no ci­
tations. And although he incorporated new facts into
his argument, he did not list them in a separate fact
section or cite any evidentiary support, as required.
Considering the “adequately supported” material facts
only, the court concluded that Penny did not have evi­
dence of a causal connection between a protected activ­
ity and his termination. It explained, in part, that
Penny had “no evidence” that Haerr knew anything
about his opposition to Hart’s non-renewal, adding
that Haerr did not even work at the Academy at the
time of Penny’s protected activity. The court also re­
jected his challenge to Rule 56.
On appeal, Penny first challenges the district
court’s ruling that he failed to comply with the local
rules, a decision that we review for abuse of discretion
only. See Hinterberger v. City of Indianapolis, 966 F.3d
523, 528 (7th Cir. 2020). Citing an earlier version of
Local Rule 7.1(D) that exempted pro se litigants from
its requirements, see C.D. III. R. 7.1(D)(6) (2010)
(amended 2013), Penny argues that his failure to ad­
here to the rule was “unintended and accidental” and
that he is “at worst guilty of excusable neglect.” The
current rule, however, does not contain a pro se exemp­
tion; it states only that “Local Rule 7.1(D) does not ap­
ply to social security appeals or any other case upon
the showing of good cause.” C.D. III. R. 7.1(D)(2)(b)(6)

App. 6
(2017). Here, Penny did not show (or try to show) good
cause to excuse his noncompliance. In his reply brief,
he implies that pro se status itself constitutes “good
cause,” but it does not. We have repeatedly recognized
that “district courts may require strict compliance with
their local rules,” Hinterberger, 966 F.3d at 528, and
have specifically approved of a court’s strict enforce­
ment of Rule 7.1(D) against a pro se litigant, see
McCurry, 942 F.3d at 787 n.2. The district court did not
abuse its discretion in doing so here.
Penny next challenges the entry of summary judg­
ment for the Academy on his retaliation claim.
Although we rely on the Academy’s statement of un­
disputed material facts, we still view those facts in the
light most favorable to Penny and review the district
court’s ruling de novo. See Cady v. Sheahan, 467 F.3d
1057, 1060 (7th Cir. 2006). To survive summary judg­
ment, Penny needed evidence that (1) he engaged in a
statutorily protected activity; (2) he suffered an ad­
verse action; and (3) there is a “but for” causal connec­
tion between the two. Rowlands v. United Parcel Serv.
- Fort Wayne, 901 F.3d 792, 801 (7th Cir. 2018). Only
the third element is at issue here. One way to demon­
strate it is “by showing that the stated reasons for the
firing were pretextual.” Graham v. Arctic Zone Iceplex,
LLC, 930 F.3d 926, 929 (7th Cir. 2019).
Penny raises two principal arguments on this
point. First, he contends that Haerr’s lack of
knowledge about his protected activity is irrelevant be­
cause Director Thomas made the ultimate termination
decision, and Thomas had a “longstanding vendetta”

App. 7
against him. Even if we accepted this assertion (which
Penny did not substantiate), Penny has not identified
evidence that Thomas terminated his contract because
of his opposition to Hart’s non-renewal two years ear­
lier, rather than his admitted failure to meet perfor­
mance goals. See Ortiz u. Werner Enters., Inc., 834 F.3d
760, 765 (7th Cir. 2016). Penny asserts that these goals
were set unrealistically high, but he does not point to
any evidence that would support an inference that the
reason given for his termination—his supervisor’s rec­
ommendation based on his performance—was “phony.”
Graham, 930 F.3d at 929. And even if Thomas disliked
Penny, as he says, there is no evidence connecting that
personal animus with Penny’s protected activity.
Second, Penny argues that the Academy “never
prove [d] the absence of a genuine issue of fact” and
thus was not entitled to summary judgment. But
Penny misconceives the burdens of production. At
summary judgment, “a party must show what evidence
it has that would convince a trier of fact to accept its
version of events.” Beardsall v. CVS Pharmacy, Inc.,
953 F.3d 969, 973 (7th Cir. 2020) (quoting Johnson v.
Cambridge Indus., Inc., 325 F.3d 892, 901 (7th Cir.
2003)). That applies to both parties, not just the mo­
vant. See Celotex Corp. v. Catrett, 477 U.S. 317, 322-23
(1986) (explaining burden on nonmoving party); Parent
v. Home Depot U.S.A., Inc., 694 F.3d 919, 922 (7th Cir.
2012) (noting “nonmovant must present definite, com­
petent evidence in rebuttal” to defeat summary judg­
ment). Penny contends that he would have made this
showing through witness testimony at trial and that

App. 8
he did not take any depositions to present this testi­
mony earlier “due to time and cost.” But a party cannot
defeat summary judgment with promises to furnish ev­
idence down the line.
Penny alternatively argues that he is entitled to
remand on the ground that summary judgment proce­
dures violate the Seventh Amendment’s guarantee of
a jury trial. He acknowledges that we previously re­
jected that argument, see, e.g., Burks v. Wis. Dept of
Transp., 464 F.3d 744, 759 (7th Cir. 2006), but urges us
to reconsider. We see no compelling reason to do so. See
Koski v. Standex Inti Corp., 307 F.3d 672, 676 (7th Cir.
2002) (“[AJrguing that Rule 56 . . . violates the Seventh
Amendment . . . flies in the face of firmly established
law.”). Because Rule 56 is consistent with the Consti­
tution, we must reject his additional argument that, in
promulgating it, the judicial branch exceeded the au­
thority delegated to it by Congress under the Rules En­
abling Act, 28 U.S.C. § 2072.
We have considered Penny’s other arguments, and
none has merit.
AFFIRMED

App. 9
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
[LOGO]
Everett McKinley Dirksen
United States Courthouse
Room 2722 219 S. Dearborn Street
Chicago, Illinois 60604

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

FINAL JUDGMENT
August 27, 2020
Before: MICHAEL S. KANNE, Circuit Judge
ILANA DIAMOND ROVNER, Circuit Judge
AMY C. BARRETT, Circuit Judge
DAVID H. PENNY,
Plaintiff - Appellant
No. 19-3168

v.

LINCOLN’S CHALLENGE
ACADEMY,
Defendant - Appellee
Originating Case Information:
District Court No: 2:17-cv-02232-CSB-EIL
Central District of Illinois
District Judge Colin S. Bruce

App. 10
The judgment of the District Court is AF­
FIRMED, with costs, in accordance with the decision
of this court entered on this date.
form name: c7_FinalJudgment(form ID: 132)

App. 11
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF ILLINOIS
URBANA DIVISION
DAVID H. PENNY,
Plaintiff,
v.
LINCOLN’S CHALLENGE
ACADEMY,
Defendant.

)
)
)
)
)
)
)

Case No. 17-cv-2232

ORDER
(Filed Oct. 4, 2019)
On May 29,2018, Plaintiff, David Penny, filed a pro
se Second Amended Complaint of Employment Dis­
crimination (#26). On July 6, 2018, Defendant, Lin­
coln’s Challenge Academy, filed a Motion to Dismiss
(#30). Pursuant to the court’s Order (#35) ruling on
that Motion, the only claim remaining is Plaintiff’s
claim that he was retaliated against for opposing an
act of disability discrimination, in violation of the
Americans With Disabilities Act (“ADA”).
On August 2, 2019, Defendant filed a Motion for
Summary Judgment (#49) and a Memorandum of Law
in Support (#50). Plaintiff filed a Response (#52) on Au­
gust 15, 2019, and Defendant filed a Reply (#55) on
September 12, 2019. For the reasons that follow, De­
fendant’s Motion for Summary Judgment (#49) is
GRANTED.

App. 12
BACKGROUND
Even pro se plaintiffs must comply with rules of
civil procedure, including local rules. Cady v. Sheahan,
467 F.3d 1057, 1061 (7th Cir. 2006). Due to Plaintiff’s
lack of compliance with applicable rules, the facts
herein are mainly taken from Defendant’s Statement
of Undisputed Material Facts and its cited exhibits.
Pursuant to Rule 7.1(D)(2)(b) of the Local Rules of
the Central District of Illinois, responses to Undis­
puted Material Facts must contain separate subsec­
tions for (1) undisputed material facts, (2) disputed
material facts, (3) disputed immaterial facts, (4) undis­
puted material facts, and (5) additional facts.
Plaintiff’s Response includes only a section for
“DISPUTED MATERIAL FACTS.” The court has eval­
uated Plaintiff’s claims of disputed facts in accordance
with Local Rule 7.1(D)(2)(b)(2), which provides that
claims of a disputed fact must be supported with evi­
dentiary documentation referenced by specific page.
Most notably absent from Plaintiff’s Response is a
subsection for additional facts. Plaintiff’s argument
references alleged facts that are not included in De­
fendant’s Undisputed Material Facts section, but
Plaintiff’s Response fails to set forth any of those facts
in compliance with Local Rule 7.1(D)(2)(b)(5). Plain­
tiff’s purported facts are not included in a separate sec­
tion for additional facts, supported by citations to
evidentiary documentation.

App. 13
Plaintiff has not properly offered any additional
facts for this court to consider. The adequately sup­
ported, material facts are as follows.
Plaintiff began working at Lincoln’s Challenge
Academy in 2003, in the position of Cadre. In 2013, he
was promoted to Shift Leader. At the end of 2014, he
went into the position of Commandant. About a year
later, at the end of 2015, he went into a recruiting,
placement and mentorship (“RPM”) position. He was
terminated from the RPM position in June of 2017.
All positions at Lincoln’s Challenge Academy are
contract positions, ranging in length from one to two
years.
Plaintiff alleges that he was retaliated against for
opposing the discriminatory non-renewal of Jim Hart.
Jim Hart was a Cadre. In June of 2015, Hart’s contract
was not renewed. At that time, Peter Thomas was the
Director of Lincoln’s Challenge Academy and Plain­
tiff’s supervisor was Deputy Director Colin Waxham.
In a meeting with Thomas and Waxham, Plaintiff
asked why Hart was being non-renewed. Plaintiff was
told “Because he’s out a lot, he’s sick a lot, he’s got a lot
of medical problems.” Plaintiff responded: “I don’t
think we can do that,” “you really can’t do that,” “I don’t
think that’s right and I don’t think we should be doing
that.”
Plaintiff did not know what Hart’s medical issues
or medical history were, but he knew that Hart “had
been out and back and forth” and “had had some

App. 14
issues.” Plaintiff stated that Hart “was still able to
function” and did not have attendance issues.
On August 24,2015, Plaintiff wrote a memo about
a phone conversation he had that day with Jim Hart.
The memo states:
TO: HUMAN RESOURCES DEPARTMENT
SUBJECT-LT HART, J. NONRENEWAL
EVENT
1. This morning I received an unexpected
call from former LT Hart, Jim. He said he was
calling to ask how I was doing after my sur­
gery. Then he brought up the issue of his con­
tract being non-renewed. He was attempting
to elicit information regarding the reason for
his non-renewal. I reminded him I was not the
one who recommended his nonrenewal, and I
am not personally aware of what was told him
when he was issued his statement by the Di­
rector. Which statement if any was given is
the reason. Additionally he informed me he
has retained legal counsel in the matter. Later
in the day he called me back saying he was
sorry he had asked me about the issue and to
not worry about it. I thought this is significant
in light of the fact he said he had spoken to a
lawyer. I thought the HR department should
know about it.
2. Should any further communication be at­
tempted with me by Mr. Hart, I will simply re­
fer him to the HR department and not make
any comments. In late 2016, Deputy Haer was

App. 15
hired, and he became Plaintiff’s supervisor.
Haer
was not employed by Defendant in 2015, when Hart
was fired and Plaintiff wrote the memo. There is no ev­
idence that Haer was aware that Plaintiff opposed
Hart’s firing.
Plaintiff was terminated in June of 2017 after
Haer “recommended it up the chain” that Plaintiff be
terminated. The reason given for the termination was
failure to accomplish recruiting goals.
ANALYSIS
I.

SUMMARY JUDGMENT STANDARD

Summary judgment is appropriate “if the movant
shows that there is no genuine dispute as to any mate­
rial fact and the movant is entitled to judgment as a
matter of law.” Fed. R. Civ. P. 56(a); see also Celotex
Corp. v. Catrett, 477 U.S. 317, 322-23 (1986). In ruling
on a motion for summary judgment, a district court
“has one task and one task only: to decide, based on the
evidence of record, whether there is any material dis­
pute of fact that requires a trial.” Waldridge v. Am.
Hoechst Corp., 24 F.3d 918, 920 (7th Cir. 1994).
“[T]he district court’s function is not to weigh the
evidence and determine the truth of the matter, but to
determine whether there is a genuine issue for trial.”
Winters v. Fru-Con, Inc., 498 F.3d 734, 744 (7th Cir.
2007). In making this determination, the court must
construe the evidence in the light most favorable to the

App. 16
nonmoving party and draw all reasonable inferences
in favor of that party. Anderson u. Liberty Lobby, Inc.,
477 U.S. 242, 255 (1986); Singer v. Raemisch, 593 F.3d
529, 533 (7th Cir. 2010). However, a court’s favor to­
ward the nonmoving party does not extend to drawing
“[i]nferences that are supported by only speculation or
conjecture.” Singer, 593 F.3d at 533, quoting Fischer v.
Avanade, Inc., 519 F.3d 393,401 (7th Cir. 2008).
“The mere existence of an alleged factual dispute
will not defeat a summary judgment motion; instead,
the nonmovant must present definite, competent evi­
dence in rebuttal.” Butts v. Aurora Health Care, Inc.,
387 F.3d 921, 924 (7th Cir. 2004). Summary judgment
“is the ‘put up or shut up’ moment in a lawsuit, when
a party must show what evidence it has that would
convince a trier of fact to accept its version of events.”
Koszola v. Bd. ofEduc. of City of Chi., 385 F.3d 1104,
1111 (7th Cir. 2004), quoting Johnson v. Cambridge In­
dus., Inc., 325 F.3d 892,901 (7th Cir. 2003). Specifically,
to survive summary judgment, “the nonmoving party
must make a sufficient showing of evidence for each
essential element of its case on which it bears the bur­
den at trial.” Kampmier v. Emeritus Corp., 472 F.3d
930, 936 (7th Cir. 2007), citing Celotex Corp., 477 U.S.
at 322-23.

App. 17
II. DEFENDANT’S MOTION
FOR SUMMARY JUDGMENT
A. Employer Status of Defendant
As a preliminary matter, the court notes that De­
fendant has included footnotes in its Motion for Sum­
mary Judgment, Memorandum in Support, and Reply
stating that the court never addressed the argument,
from its Motion to Dismiss (#30), that Lincoln’s Chal­
lenge Academy is an entity of the Illinois Department
of Military Affairs, which is “the particular agency of
the state that has actual hiring and firing responsibil­
ity over Plaintiff.” The court notes that it addressed
this argument on page seven of its Order (#35) ruling
on the Motion to Dismiss, stating:
Preliminarily, the court notes that Plaintiff
has sufficiently alleged that Defendant Lin­
coln’s Challenge Academy was his employer.
To argue it was not Plaintiff’s employer, De­
fendant relies on Hearne v. Board of Educ. of
City of Chicago, 185 F.3d 770, 777 (7th Cir.
1999), in which a school board, not the State
of Illinois, was a person’s employer where the
school board had “actual hiring and firing re­
sponsibility.” Here, however, Plaintiff alleges
that Defendant Lincoln’s Challenge Academy
had, and used, the authority to hire, promote,
demote, and fire employees.
As Defendant’s Motion for Summary Judgment does
not argue that Defendant was not Plaintiff’s employer,
the court need not further address this issue.

App. 18
B. Whether Defendant is Entitled to Summary
Judgment
Plaintiff claims that he was retaliated against for
opposing an act of disability discrimination. Defendant
argues that it is entitled to summary judgment on
Plaintiff’s ADA retaliation claim because Plaintiff
failed to establish a prima facie claim of retaliation.
To establish a prima facie case for ADA retaliation,
a plaintiff “must demonstrate that: (1) she engaged in
a protected activity; (2) she suffered an adverse em­
ployment action; (3) and a causal connection exists be­
tween the two.” Tolston-Allen v. City of Chi., 2019 WL
4242504, at *2 (N.D. Ill. Sept. 6, 2019), citing King v.
Ford Motor Co., 872 F.3d 833, 842 (7th Cir. 2017);
Mobley v. Allstate Ins. Co., 531 F.3d 539, 549 (7th Cir.
2008). Defendants argue that Plaintiff has failed to es­
tablish that he engaged in protected activity or that his
alleged protected activity resulted in his termination.
The anti-retaliation provision of the ADA provides
that “[n]o person shall discriminate against any indi­
vidual because such individual has opposed any act or
practice made unlawful by this chapter or because
such individual made a charge, testified, assisted, or
participated in an investigation, proceeding, or hearing
under this chapter.” 42 U.S.C. § 12203(a).
The ADA prohibits discrimination against quali­
fied individuals with disabilities, including “in regard
to discharge of employees.” 42 U.S.C. § 12112(a). The
term “disability” is defined as “(A) a physical or mental
impairment that substantially limits one or more of

App. 19
the major life activities of such individual; (B) a record
of such an impairment; or (C) being regarded as having
such an impairment.” 42 U.S.C. § 12102(2).
The court finds that Plaintiff arguably engaged in
protected activity by opposing the firing of an individ­
ual “regarded as” having “a physical or mental impair­
ment that substantially limits one or more of [his]
major life activities.” Waxham and Thomas told Plain­
tiff that Hart was being non-renewed “Because he’s out
a lot, he’s sick a lot, he’s got a lot of medical problems.”
Arguably, that explanation shows that Waxham and
Thomas regarded Hart as impaired by an illness which
substantially limited a major life activity, working.1
Plaintiff opposed Hart’s firing, telling Thomas and
Waxham, “I don’t think we can do that,” “you really
can’t do that,” “I don’t think that’s right and I don’t
think we should be doing that.” Those statements can
be interpreted as Plaintiff opposing the non-renewal
on the basis of Hart’s perceived disability. Plaintiff’s
opposition to Hart’s non-renewal, based on Hart’s be­
ing regarded by the employer as having a disability, is
protected activity.
Plaintiff’s memo does not state any opposition to
Hart’s non-renewal. It describes a phone call with
Hart, without opining on the reason for the non-re­
newal or Plaintiff’s thoughts on the merits of that rea­
son. That Plaintiff found it prudent to file such a memo
may further indicate that he believed he had earlier
1 Working is a major life activity. See Sinkler v. Midwest
Prop. Mgmt. Ltd. P’ship, 209 F.3d 678, 684 (7th Cir. 2000).

App. 20
opposed the firing in his meeting with Thomas and
Waxham, but the memo itself does not contain an ad­
ditional expression of protected activity.
Plaintiff engaged in protected activity when ver­
bally opposing Hart’s non-renewal in June of 2015.
Plaintiff was terminated in June 2017, an adverse em­
ployment action. The question, then, is whether the ev­
idence could support a causal connection between that
protected activity and the adverse action. King, 872
F.3d at 842, citing Ortiz v. Werner Enters., Inc., 834 F.3d
760, 764-66 (7th Cir. 2016). In deciding that question,
courts “consider the evidence as a whole and ask
whether a reasonable jury could draw an inference of
retaliation.” Id.
Plaintiff has not produced any evidence that De­
fendant took any action because he opposed Hart’s
non-renewal. The recommendation to terminate Plain­
tiff’s employment came from Deputy Haer. There is no
evidence Haer knew anything about Plaintiff’s oppos­
ing Hart’s non-renewal, and Haer was not even em­
ployed by Defendant at the time of the protected
activity. Plaintiff was not terminated until two years
after the protected activity, undermining any inference
that the firing was caused by the protected activity.
King, 872 F.3d at 842.
Plaintiff argues that he has established causation
based on a series of harassing events that he alleges
created a hostile work environment, culminating in the
fabrication of unattainable performance standards
used to make it appear as though the termination was

App. 21
not retaliatory. However, as noted in the Background
section above, Plaintiff has not properly presented
facts about of any of those events or the reasonableness
of the performance standards. Under the facts as the
parties have presented them, there is no evidence of
the required causal connection between a protected ac­
tivity and an adverse action.
In the absence of any showing of a causal connec­
tion between a protected activity and an adverse ac­
tion, Defendant is entitled to summary judgment on
Plaintiff’s ADA retaliation claim.
Plaintiff also argues that summary judgment is
unconstitutional. However, this court is unaware of
any other court that has agreed with that position. In
discussing a plaintiff’s argument that, “as a principle
of law, summary judgment cannot be squared with the
Constitution,” the Seventh Circuit stated:
[W]e previously have rejected arguments that
summary judgment violates either the Fifth
or Seventh Amendments. See Koski v. Standex
Inti Corp., 307 F.3d 672, 676 (7th Cir. 2002).
As for the Fifth Amendment, we stated that
“[t]he Supreme Court has made it abundantly
clear that summary judgment has a proper
role to play in civil cases,” and thus granting
summary judgment does not violate a plain­
tiff’s right to due process. Id. We also have
stated that summary judgment and Federal
Rule of Civil Procedure 56 do not violate the
Seventh Amendment, as “this argument . . .
flies in the face of firmly established law.” Id.
(citing Fid. & Deposit Co. of Maryland v.

App. 22
United States, 187 U.S. 315, 320, 23 S.Ct. 120,
47 L.Ed. 194 (1902)). The Seventh Amend­
ment does not entitle parties to a jury trial
when there are no factual issues for a jury to
resolve. See id.
Burks v. Wise. Dept. ofTransp., 464 F.3d 744, 759 (7th
Cir. 2006). Thus, this court finds that summary judg­
ment is constitutional.

IT IS THEREFORE ORDERED THAT:
(1) Defendant’s Motion for Summary Judgment
(#49) is GRANTED. Judgment is entered in favor of
Defendant and against Plaintiff.
(2) This case is terminated.
ENTERED this 4th day of October, 2019.
s/COLIN S. BRUCE
U.S. DISTRICT JUDGE

1

